           Office of Audits
           Office of Inspector General
           U.S. General Services Administration




           Audit of the Postpayment
           Audit Process
           Transportation Audits Division
           Federal Acquisition Service
           Report Number A120169/Q/9/P14002
           March 31, 2014




A120169/Q/9/P14002
                       Office of Audits
                       Office of Inspector General
                       U.S. General Services Administration


                                         REPORT ABSTRACT
OBJECTIVE                       Audit of the Postpayment Audit Process, Transportation Audits Division,
 To determine whether the       Federal Acquisition Service
 Transportation Audits          Report Number A120169/Q/9/P14002
 Division's postpayment audit   March 31, 2014
 process effectively ensures    WHAT WE FOUND
 the maximum recovery of        We identified the following during our audit:
 transportation overpayments    Finding 1 – The Transportation Audits Division needs to analyze existing performance
 within the 3-year timeframe    data and assess its staffing levels to ensure maximum recovery of overcharges.
 established under 31 United    Finding 2 – The Contracting Officer’s Technical Representative’s lack of enforcement of
 States Code Section 3726.      the terms and conditions in the postpayment contract’s Statement of Work exposes the
                                Government’s interests to non-compliance.
                                Finding 3 – The Transportation Audits Division’s exclusion of a required security provision
                                in its Statement of Work and non-compliance with GSA’s Information Technology Security
                                Policy subjects government data to risk.
                                Finding 4 – The Transportation Audits Division is not updating its internal audit tracking
                                system to ensure that agencies comply with 41 CFR 102-18.425.
                                WHAT WE RECOMMEND
                                Based on our audit findings, we recommend the Commissioner of the Federal Acquisition
                                Service:
                                1. Strengthen the Transportation Audits Division’s postpayment audit process to
                                    maximize collections by:
                                         a. Performing in-depth analysis of available transportation data;
                                         b. Maximizing the use of tolling agreements;
                                         c. Conducting a study that addresses the staffing requirements needed to meet
                                             its future workload; and
                                         d. Developing procedures within the Office of Travel and Transportation under
                                             FAS’s Travel, Motor Vehicle, and Card Service portfolio to minimize any
                                             perceived conflict of interest.
                                2. Provide proper guidance and supervision to ensure that the Contracting Officer’s
                                    Technical Representative enforces the terms and conditions outlined in the
                                    Statement of Work.
                                3. Immediately modify the current Statement of Work to include the required security
                                    provisions and ensure that those provisions are notated in any future solicitation
                                    and/or Statement of Work for postpayment audits.
                                4. Ensure the required security clearances for their postpayment auditors complies with
                                    GSA Order CIO P 2100.1D.
                                5. Ensure that the Accounts Receivable Tracking System is current by updating the
Pacific Rim                         number of invoices received for postpayment audit.
Field Audit Office (JA-9)       MANAGEMENT COMMENTS
450 Golden Gate Avenue          The Commissioner of the Federal Acquisition Service concurred with our
Room 7-5262                     recommendations. Management’s comments can be found in their entirety in
San Francisco, CA 94102         Appendix B.
(415)522-2744




     A120169/Q/9/P14002                                  i
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            March 31, 2014
 TO:              Thomas A. Sharpe, Jr.
                  Commissioner, Federal Acquisition Service (Q)




 FROM:            Perla Corpus
                  Audit Manager, Pacific Rim Field Audit Office
 SUBJECT:         Audit of the Postpayment Audit Process,
                  Transportation Audits Division, Federal Acquisition Service
                  A120169/Q/9/P14002

This report presents the results of our audit of the postpayment audit process in the
Transportation Audits Division of the Federal Acquisition Service. Our findings and
recommendations are summarized in the Report Abstract. Instructions regarding the
audit resolution process can be found in the email that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

 Perla Corpus     Audit Manager        perla.corpus@gsaig.gov        (415) 522-2733
 Jeremy Martin    Auditor-In-Charge    jeremy.martin@gsaig.gov       (202) 273-7378
 Eric Madariaga   Auditor              eric.madariaga@gsaig.gov      (415) 522-2730

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A120169/Q/9/P14002                         ii
Table of Contents

Introduction .............................................................................................................. 1

Results
Finding 1 – The Transportation Audits Division needs to analyze existing
           performance data and assess its staffing levels to ensure maximum
           recovery of overcharges. ......................................................................... 3
           Recommendation 1 ................................................................................. 6
           Management Comments ......................................................................... 7
Finding 2 – The Contracting Officer’s Technical Representative’s lack of
           enforcement of the terms and conditions in the postpayment
           contract’s Statement of Work exposes the Government’s interests to
           non-compliance. ...................................................................................... 7
           Recommendation 2 ................................................................................. 8
           Management Comments ......................................................................... 8
Finding 3 – The Transportation Audits Division’s exclusion of a required security
           provision in its Statement of Work and non-compliance with GSA’s
           Information Technology Security Policy subjects government data to
           risk. .......................................................................................................... 9
           Recommendations 3 and 4.................................................................... 10
           Management Comments ....................................................................... 10
Finding 4 – The Transportation Audit Division is not updating its internal audit
           tracking system to ensure that agencies comply with 41 CFR 102-
           18.425. .................................................................................................. 10
           Recommendation 5 ............................................................................... 11
           Management Comments ....................................................................... 11
Other Observations. ................................................................................................. 11

Conclusion.............................................................................................................. 12

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ....................................................................... C-1




A120169/Q/9/P14002                                        iii
Introduction
Each agency that receives a bill for transporting individuals or property on behalf of the
United States Government must verify the bill’s accuracy, as delineated in 31 United
States Code (U.S.C.) Section 3726. This regulation grants authority for oversight of this
process to the General Services Administration (GSA).               GSA established the
Transportation Audits Division within the Travel, Motor Vehicle, and Card Services
portfolio of the Federal Acquisition Service (FAS) to perform this oversight.

The Division is responsible for identifying and recovering overcharges and other debts
related to the estimated $16.3 billion in annual transportation bills paid by federal
agencies to transportation service providers. Provider services include shipping goods
(household and commodities) and transporting individuals (via airlines, trains, and
ships). The Division is organized into three branches: Audit Policy and Review,
Accounts and Collections, and Disputes Resolution.

GSA developed detailed rules and regulations, incorporated into the Code of Federal
Regulations (CFR), to assist federal agencies in complying with 31 U.S.C.
Section 3726. The CFR provides agencies with an interpretation of statutes and other
policies to assure that payments and payment systems for agency transportation
services are uniform and appropriate.

The Division oversees compliance with 31 U.S.C. Section 3726 and the CFR by
ensuring postpayment audits are performed on all federal transportation invoices. To
fulfill this responsibility, the Division awarded three contracts for postpayment audit
services using a two-tiered audit process. 1 Each contractor was awarded as either first
or second tier for specific transportation modes. 2 For each transportation mode, the first
tier contractor is given the initial opportunity to audit the transportation invoices. Once
the first tier contractor has been given the opportunity to conduct its audit, the invoices
are made available to the second tier contractor. This two-tier postpayment audit
process allows for a second independent review, which has proven to be effective since
second tier contractors are finding additional overcharges missed by the first.

The postpayment audit process begins when the Division receives an agency’s paid
transportation invoice in paper or electronic format. Paper invoices are entered into an
internal tracking system and sent to the appropriate first tier contractor on a monthly
basis. 3 Electronic invoices, received through an automated payment system, are




1
 The three contracts: GS-33F-V0029 Mid-South Transportation Analysts, Inc.; GS-33F-V0028 The
Commercial Traffic Company; and GS-33F-V0030 Parsifal Corporation, were awarded on April 1, 2009,
for 1 year with four 1-year options.
2
 The Division is responsible for auditing the following transportation modes: air cargo, air passenger,
domestic household goods, foreign household goods, motor freight, rail freight, and steam ship.
3
 Paper invoices are any invoice mailed to the Division, including submissions through e-mail.


A120169/Q/9/P14002                            1
managed by the Division through internal audit schedules. 4 Depending on the
transportation mode, the electronic invoices are available to the first tier contractor 60 to
90 days after payment and to the second tier contractor 90 to 180 days after payment.

Once received, the first tier contractor audits the invoices and issues an overcharge, if
found. 5 The first tier contractor holds invoices with identified overcharges and makes
clear invoices available to the second tier contractor for review. 6 The contracts require
all audits to be completed within 30 days from the contractor’s receipt of invoice.

Upon the contractor issuing an overcharge, the provider has 60 days to dispute or
protest all or any portion of the amount due to the Government. Within 30 days of a
notice of protest, the contractor that issued the overcharge has two options: (1) allow
the protest, which cancels the overcharge; or (2) deny the protest, which requires the
provider to pay the full amount. The Accounts and Collections Branch is responsible for
collecting all overcharges due from the provider. 7

Our objective was to determine whether the Division's postpayment audit process
effectively ensures the maximum recovery of transportation overpayments within the 3-
year timeframe established under 31 United States Code Section 3726.

See Appendix A – Purpose, Scope, and Methodology for additional details.




4
 The Division prepares audit schedules to provide notice to contractors when electronic invoices will be
available to audit. The audit schedule for each contractor is organized by transportation mode and helps
prevent first and second tier contractors from auditing electronic invoices simultaneously.
5
 An overcharge is notification that there is an overbilling on an invoice. Once an overcharge is issued, it
is entered into the Division’s Transportation Accounts Receivable Payable System (TARPS) and a paper
notification is mailed to the responsible provider.
6
 Clear invoices are paid transportation bills where no billing errors or overbillings were found.
7
 Based on a negotiated percentage, the contractors are compensated for the overcharges that are
successfully collected by the Division.


A120169/Q/9/P14002                              2
Results
Finding 1 – The Transportation Audits Division needs to analyze existing
performance data and assess its staffing levels to ensure maximum recovery of
overcharges.

The Division cannot ensure it is recovering the maximum amount of overcharges from
transportation providers because it does not analyze existing performance data and has
not assessed its staffing levels. GSA may conduct postpayment audits of transportation
invoices of any federal agency after an invoice is paid under 31 U.S.C. Section 3726;
however, the collection of overcharges is limited to 3 years after payment (excluding
time of war). We also identified a conflict of interest within the FAS Office of Travel and
Transportation that may impede recovery of overcharges.

Performance Data

The Division is not analyzing existing data to assess its performance or that of its
postpayment audit contractors. Consequently, the Division is unable to either evaluate
the strengths and weaknesses of its postpayment audit processes or make sound
business decisions affecting the collection of overcharges. We were able to evaluate
the performance of the Division and its contractors using available data for the following
areas: 8

        •   Lag Times 9
        •   Collection Rates
        •   Expiring Collections

Lag Times. From 2009 through 2011, contractors issued overcharges 260 days after
the invoice paid date for the first tier audit and 738 days for the second tier audit (see
Figure 1).

                 Figure 1 – Postpayment Lag Times by Audit Tier (Days)

                    Calendar                  First                   Second
                 Year Bill Paid In         Tier Audits              Tier Audits
                       2009                     288                      745
                       2010                     240                      742
                       2011                     259                      588
                             10
                     Average                    260                      737



8
 Data used during this audit was captured in TARPS.
9
 Lag time is equal to the number of calendar days elapsed from the date the invoice was paid to the date
the overcharge was issued. The lag includes the time it takes for agencies to mail paper invoices to the
Division and the one-month processing time it takes for the Division to forward paper invoices to the
contractors.
10
  Average days are weighted by the number of overcharges issued during the year in which the bill was
paid.


A120169/Q/9/P14002                             3
Division officials informed us that an agreement with the Department of Defense to
delay audits of transportation bills for 180 days for quality assurance purposes
contributed to contractor lag times. However, accounting for this exception, no other
explanation was provided for lag times exceeding this 180-day delay by 80 and 557
days for first tier and second tier audits, respectively. 11 We note that the length of time
between the date when the contractor received the invoice and issued an overcharge
could not be determined as the contractors’ invoice receipt date is not tracked;
therefore, we could not account for this in our analysis.

We determined a correlation exists between the number of days an overcharge was
issued after payment and the percentage of overcharges uncollected (see Figure 2).
The longer contractors took to issue an overcharge, the likelihood increased that an
overcharge was not collected.

                                               Figure 2 Correlation between Increased Lag Times and Percentage of
                                                                     Overcharges Uncollected


                                                          Overcharges Issued for Bills Paid During 2007 - 2009
                                          40
     Percent of Overcharges Uncollected




                                          35

                                          30

                                          25

                                          20

                                          15

                                          10

                                          5

                                          0
                                                    0 - 199         200 - 399              400 - 599                600 - 799   800+
                                                                       Number of Days Overcharge was Issued After Payment




For bills paid during 2007 to 2009 the Division issued overcharges of $33.1 million, of
which, $6.3 million were written off as uncollectible. 12 Less than 10 percent of the
overcharges were uncollected if the lag time was less than 400 days. For overcharges
with lag times between 600 and 799 days, the percentage of uncollected overcharges
rose to over 25 percent and for lag times of at least 800 days nearly 35 percent. The
correlation between the lag time of an overcharge and the percent uncollected
highlights the importance of identifying overcharges early in the postpayment audit
process.



11
  Weighted average of 260 days less 180 days equals an 80 day lag for first tier audits. Weighted
average of 737 days less 180 days equals a 557 day lag for second tier audits.
12
  Since the majority of invoices paid during 2010 and all invoices paid since 2011 have not yet exceeded
the 3-year limitation, the collection implications for the lag times in Figure 1 cannot yet be determined.


A120169/Q/9/P14002                                                                    4
Collection Rates. While data are readily available, the Division is not tracking its
collection rates and cannot determine its collections performance. We calculated the
collection rate to ascertain the Division’s performance for the years 2007 to 2009 (see
Figure 3). 13 The Division could use these annual collection rates to continuously
improve its postpayment audit process.

        Figure 3 - Collection Rates for 3-year Period by Contractor (Percent)

            Year
          Bill Paid           Mid-South           Commercial Traffic             Parsifal
           2007                   96                    45                         96
           2008                   92                    63                         89
           2009                   96                    66                         94

Expiring Collections. The Division does not use available data to prevent overcharges
from expiring. As of the end of August 2012, overcharges worth $3.6 million were due
to expire by December 31, 2012. In response to a 2010 Civilian Board of Contract
Appeals decision that reduced the statute of limitations for overcharge collection from
10 to 3 years, the Division introduced tolling agreements. 14 However, of the top ten
providers with the most outstanding overcharges, only three had a tolling agreement.

We performed further analysis on the $3.6 million in overcharges and identified that 21
percent ($770,059) were not protected by a tolling agreement and were written off by
the Division. Had the Division been able to establish a tolling agreement, the likelihood
of collection could have increased.

By collecting, analyzing, and benchmarking lag times, collection rates, and expiring
collections, the Division can prioritize its collection efforts to increase the likelihood of
recovering overcharges. The Division needs to improve data analysis techniques to
increase collections. In addition, the Division should use tolling agreements to the
maximum extent possible to extend the collection of overcharges beyond the 3-year
statute.

Staffing Analysis

The Division has not completed an analysis of staffing requirements needed to meet its
current and future workload, jeopardizing its ability to maximize the collection of
transportation overcharges.

Division management has not formally addressed how it will accomplish its mission with
current staff levels. In the last 2 years, the Division lost 40 percent of its management
team with at least 35 years of experience. As of February 2013, the Division lost its

13
  We calculated the collection rate by dividing the total number of overcharges collected by the total
number of overcharges for each year respectively.
14
  A tolling agreement is a contract between the provider and the Division that allows collection of
transportation overcharges exceeding the 3-year statute of limitations.


A120169/Q/9/P14002                            5
Director (GS-15), one branch chief (GS-14), two supervisors (GS-13s), and three senior
employees (GS-11s or GS-12s) to retirement. The Accounts and Collections Branch
alone lost its branch chief, two GS-13 supervisors, and two senior employees to
retirement, 33 percent of the Branch’s employees.

Although the Director position was filled through internal promotion, the Division was
unable to backfill other vacancies due to an agency-wide hiring freeze. 15 To ensure
coverage for all branches, management has informally shuffled personnel to cover the
workload. However, temporarily reassigning employees between branches is not a
long-term solution to resolving staff issues.

The Division is currently commissioning a study to assess its business processes. 16 As
part of this study, the Division should include a thorough analysis of staffing
requirements needed to meet future workload.

Perceived Conflict of Interest

A perceived conflict of interest could occur within the Office of Travel and Transportation
due to competing interests. As a result, management decisions affecting the Division
could be unduly influenced by secondary interests, which may affect recovery of
overcharges.

The Division is part of the Office of Travel and Transportation under FAS’s Travel, Motor
Vehicle, and Card Service portfolio. The Director of the Office of Travel and
Transportation oversees not only the Division but also travel and transportation
programs such as the City Pair Program, 17 whereby the Division is responsible for
collecting provider overcharges. Hence, management decisions regarding providers
who participate in travel and transportation programs could impact the postpayment
auditing process. To minimize or eliminate the perceived conflict of interest FAS should
develop procedures to ensure that competing interests are addressed.

Recommendation 1

We recommend the Commissioner of the Federal Acquisition Service:

1. Strengthen the Transportation Audits Division’s postpayment audit process to
   maximize collections by:
   a. Performing in-depth analysis of available transportation data;
   b. Maximizing the use of tolling agreements;


15
  The Acting GSA Administrator imposed a GSA-wide hiring freeze on July 17, 2012.
16
  The purpose of the proposed study is to acquire business process management and consulting services
for the Division. These services include an assessment of the Division’s personnel and database
systems.
17
  The City Pair Program offers travelers on official government business airline fares with considerable
discounts from comparable commercial fares.


A120169/Q/9/P14002                             6
     c. Conducting a study that addresses the staffing requirements needed to meet its
        future workload; and
     d. Developing procedures within the Office of Travel and Transportation under
        FAS’s Travel, Motor Vehicle, and Card Service Portfolio to minimize any
        perceived conflict of interest.

Management Comments

The Commissioner of the Federal Acquisition Service concurred with our
recommendation. Management’s written comments to this report are included in their
entirety as Appendix B.

Finding 2 – The Contracting Officer’s Technical Representative’s lack of
enforcement of the terms and conditions in the postpayment contract’s
Statement of Work exposes the Government’s interests to non-compliance.

The Contracting Officer’s Technical Representative (COTR) is not enforcing the terms
and conditions of the contract’s Statement of Work (SOW) due to the Division’s lack of
oversight. As a result, the Government’s interests are not protected against contractor
non-compliance.

Despite receiving the required COTR training, the Division has not provided adequate
supervision to ensure that the appointed COTR enforces the SOW requirements. We
noted that several of the SOW’s terms and conditions were not enforced, including:
(1) obtaining certain deliverables from contractors, (2) monitoring contractor compliance
based on the contract’s 30-day completion timeframe, (3) ensuring that second tier
audits are performed as specified in the SOW, and (4) verifying qualifications of
contractors.

Deliverables. The SOW requires that contractors provide two monthly deliverables:
Number of Transportation Bills Audited and Number of Protests Processed. 18 However,
the COTR did not obtain these reports from all contractors. In fact, we could only
confirm that one contractor was even tracking the data necessary to provide the
required deliverables. The Division cannot determine the universe of audits completed
without these deliverables.

Completion Timeline. Audit schedules are not being followed by a second tier
contractor. The contractor had not reviewed available foreign household good
transportation bills for the life of the contact due to a miscommunication between the
Division and the contractor and the Division’s lack of oversight. 19 A minimum of 4,000
transportation bills, valued at $21 million, were available for review in 2011 alone. Also,
as of September 2012, the contractor was reviewing domestic household good
electronic bills paid over 2 years prior, instead of 90-180 days as specified in the audit

18
  A protest is any dispute by the transportation service provider concerning a Notice of Overcharge or
other type of billing error.
19
  The period of performance was initiated on April 1, 2009.


A120169/Q/9/P14002                            7
schedule. The COTR’s lack of follow-up on the audit schedules hindered the Division’s
ability to issue and collect potential overcharges.

Second Tier Audits. The SOW requires each second tier contractor to audit all
transportation bills it receives. The COTR is not ensuring required audits under each
transportation mode are undergoing the second tier audit, specifically audits of rail
freight bills from 2009 to 2012. 20 In 2011 alone, there were over 6,000 rail freight bills
not audited by the second tier contractor. The Division did not provide an explanation
for the failure to conduct a second tier audit on rail freight transportation bills.
Management’s lack of COTR oversight has reduced the likelihood of recovering
additional overcharges.

Contractor Qualifications. The SOW states that postpayment auditors must have a
minimum of 7 years general transportation experience and 4 years of specialized
experience in auditing freight and/or passenger bills. The COTR did not verify the
qualifications of contractor personnel because she was not aware it was a COTR
responsibility. As a result, two postpayment auditors performed audits while not
qualified.

Had the COTR ensured contractors were submitting required deliverables, complying
with audit schedules, and conducting second tier audits of all transportation modes, the
Division could have identified and corrected issues in a timely manner and increased
collection of overcharges.     In addition, unqualified personnel hired to perform
postpayment audits may have increased the risk of inaccurate audits and potentially
reduced collections resulting from overlooked overcharges. With proper COTR
supervision, deficiencies may have been avoided.

Recommendation 2

We recommend the Commissioner of the Federal Acquisition Service:

     2. Provide proper guidance and supervision to ensure that the Contracting Officer’s
        Technical Representative enforces the terms and conditions outlined in the
        Statement of Work.

Management Comments

The Commissioner of the Federal Acquisition Service concurred with our
recommendation. Management’s written comments to this report are included in their
entirety as Appendix B.




20
 All transportation bills are required to undergo a second tier audit except for steam ship bills.


A120169/Q/9/P14002                               8
Finding 3 –The Transportation Audits Division’s exclusion of a required security
provision in its Statement of Work and non-compliance with GSA’s Information
Technology Security Policy subjects government data to risk.

As mandated by GSA’s Information Technology (IT) Security Policy, the Division did not
include security provisions in the SOW and did not ensure its contractors underwent
background screenings prior to gaining access to GSA systems. As a result, personally
identifiable information (such as social security numbers) available on GSA systems
was at risk. According to GSA Order CIO P 2100.1D, dated June 21, 2007, GSA
contractors accessing GSA information systems must undergo background screenings,
before being allowed to use GSA systems. 21

Exclusion of security provision in the SOW

Because security provisions were not stated in the SOW, Division personnel and
contractors were not aware of the requirement to obtain background screenings prior to
accessing GSA systems. GSA Order CIO P 2100.1D, dated June 21, 2007, states,
“contracting officers shall ensure that security requirements are included in task orders
and contracts for all GSA IT systems.”

Non-compliance with GSA IT Security Policy

For each contract award, postpayment auditors did not have the required security
clearance prior to obtaining access to the Division’s database systems. Management
officials representing two contractors stated that they were not required to obtain
employee background screenings to access systems, such as TARPS, which contained
personally identifiable information. We determined that 12 of the 23 postpayment
auditors with access to TARPS did not undergo background investigations, 8 had
insufficient clearance, and the remaining 3 obtained the required security clearance 6
months after the award date. 22 As a result, none of the postpayment auditors completed
the required background screening prior to gaining access to GSA systems, as
stipulated in GSA Order CIO P 2100.1D. 23

To ensure compliance, the Division must immediately modify the current SOW to
include security provisions and ensure that these provisions are notated in any future
solicitation and/or SOW for postpayment audits.




21
  Postpayment auditors were granted access to TARPS during calendar years 2008 - 2010.
22
  The Director of the Transportation Audits Division stated that postpayment auditors are required to
undergo background investigations at the moderate public trust risk level. However, 8 postpayment
auditors only had clearance for the low public trust risk level and the remaining 12 did not have any
security clearance.
23
  With the current postpayment contract due to expire on March 31, 2014, contractors are subject to the
same requirements for obtaining background screenings prior to gaining access to a GSA system
(GSA Order CIO P 2100.1H effective September 24, 2012).


A120169/Q/9/P14002                            9
Recommendations 3 and 4

We recommend the Commissioner of the Federal Acquisition Service:

3. Immediately modify the current Statement of Work to include the required security
   provisions and ensure that those provisions are notated in any future solicitation
   and/or Statement of Work for postpayment audits.
4. Ensure the required security clearances for their postpayment auditors complies with
   GSA Order CIO P 2100.1D.

Management Comments

The Commissioner of the Federal Acquisition Service concurred with our
recommendations. Management’s written comments to this report are included in their
entirety as Appendix B.

Finding 4 – The Transportation Audit Division is not updating its internal audit
tracking system to ensure that agencies comply with 41 CFR 102-18.425.

During 2012, the Division had a 4-month backlog of transportation bills that were not
recorded into the Accounts Receivable Tracking System (ARTS). 24 As a result, the
Division is unable to ensure agencies are submitting transportation bills as required by
41 CFR 102-118.425.

To initiate the postpayment audit process for paper transportation bills, the GSA
Transportation Audits Handbook requires customer agencies to send the Division their
transportation bills on a monthly basis. The Division tabulates the number and
monetary amount of transportation bills received, sorts transportation bills by
transportation mode, and inputs the results into ARTS. The system then generates
letters to agencies that failed to submit their monthly transportation bills. However,
since the Division failed to input transportation bills into ARTS, no letters were
generated during April to July of 2012.

In addition to the lack of letters from ARTS, there is no documentation available to
support that the Division attempted to contact agencies to obtain monthly paper
transportation bills; however, follow-up is further complicated due to missing contact
information on certain invoice submissions. Without proper follow-up, agencies are able
to hold transportation bills for extended amounts of time, delaying the initiation of audits.
In October 2012, the Division received nearly 3,000 transportation bills paid in 2008,
totaling approximately $18 million.             Since the 3-year limitation expired, the
transportation bills did not undergo the postpayment audit process. Timely submission
of transportation bills is critical to recovering overcharges before expiration.



24
  This database is critical in the postpayment audit process because it tracks agencies’ paid paper
transportation bills submitted to GSA.


A120169/Q/9/P14002                          10
Recommendation 5

We recommend the Commissioner of the Federal Acquisition Service:

5. Ensure that the Accounts Receivable Tracking System is current by updating the
   number of invoices received for postpayment audit.

Management Comments

The Commissioner of the Federal Acquisition Service concurred with our
recommendation. Management’s written comments to this report are included in their
entirety as Appendix B.

Other Observations

During the course of our audit, we noted issues that we want to bring to management’s
attention. There are no recommendations for the following issues:

   •   The Division ceased issuing travel overcharges by Foreign Service Officers
       (FSO) resulting in an estimated $814,000 of uncollected overcharges in 2010.
       According to 5 U.S.C. Sections 5701-09, FSOs are not required to use the City
       Pair Program. In addition, State Department policy designates any of its
       employees on foreign travel as a FSO. Through discussions, the Division agreed
       with the State Department that FSOs are not mandatory users of the City Pair
       Program and notified its contractors to stop issuing overcharges on
       corresponding air passenger transportation bills.

   •   The Division is unable to audit transportation bills from freight shippers
       (subcontractors) under the Defense Transportation Coordination Initiative
       because the shipper’s rates are not available to Division contractors. The
       Division has been in contact with the Defense Transportation Coordination
       Initiative’s contracting officer; however, the contracting officer does not want to
       make the subcontractor rates available.           A contractor estimated annual
       overcharges of $3 million under the Defense Transportation Coordination
       Initiative contract.




A120169/Q/9/P14002                      11
Conclusion
The Division is not performing effective oversight of the postpayment audit process to
ensure the maximum recovery of transportation overpayments within the 3-year
timeframe established by 31 U.S.C. Section 3726. As a result, the Division was unable
to collect $6.3 million in overcharges during calendar years 2007 – 2009.

To improve collection of overcharges before they expire, the Division should analyze
existing data to assess postpayment audit performance to reduce the significant lag
between the bill pay date and the issuance of an overcharge. A reduction in lag time
could improve its collection rates and amounts.

Additionally, the Division has not formally addressed how it will accomplish its mission
with the loss of significant experience through retirement, including 40 percent of its
management team and 33 percent of its staff in the Accounts and Collections Branch.

To minimize potential conflicts of interest within the Travel, Motor Vehicle, and Card
Service portfolio, FAS must develop and implement procedures regarding management
decisions affecting the collection of overcharges.

FAS management should also address the fact that the contracting officer’s technical
representative is not enforcing the terms and conditions of the contract’s statement of
work including: deliverables, timelines, second tier audits, and contractor qualifications.

To adhere to GSA IT Security Policy, the Division must ensure that security provisions
are notated on current and future solicitations and/or statements of work for
postpayment audits. In addition, contractors must have background screenings prior to
accessing GSA IT systems for the Division to be in compliance with the security policy.

Finally, the Division is not updating its internal audit tracking system to ensure agencies
are submitting paper transportation bills, as required by 41 CFR 102-118.425, in a
timely manner. This reduces the Division’s ability to assess its performance.

Given the $16.3 billion spent in government-wide transportation expenses in fiscal
year 2012, implementing the audit report’s recommendations could reduce
transportation overcharges that may remain uncollected.




A120169/Q/9/P14002                      12
Appendix A – Purpose, Scope, and Methodology
Purpose

This is the second of two transportation audits included in the Office of Inspector
General Audit Plan for fiscal year 2012. The first audit focused on the Division’s
prepayment audit process. 25 This audit is focused on the Division’s postpayment audit
process. We performed both audits at the request of the Federal Acquisition Service’s
Office of Travel, Motor Vehicle, and Card Services.

Scope

Our audit focused on the Division’s postpayment audit processes for transportation bills
paid by agencies during 2007 – 2011.

Methodology

To accomplish the audit objective, we:

     •   Reviewed relevant criteria, including the United States Code and the Code of
         Federal Regulations;
     •   Interviewed the Division’s Director, three Branch Chiefs, and postpayment audit
         staff;
     •   Conducted site visits to review the postpayment contractors’ processes for
         auditing transportation bills;
     •   Obtained and analyzed postpayment audit data from the Division’s TARPS
         database; 26
     •   Determined lag times of overcharges for 2009 – 2011 bills based on payment
         and overcharge issuance dates;
     •   Determined whether a correlation exists between the lag times of overcharges
         and the likelihood of collection;
     •   Calculated collection rates of the postpayment contractors for bills paid during
         2007 – 2009;
     •   Determined the amount of overcharges that were to expire during the 4-month
         period ended December 31, 2012;
     •   Ascertained the number of employee retirements in the Division during 2012 and
         2013;
     •   Assessed potential conflicts of interest between the Division and FAS
         management;
     •   Reviewed the SOW and the COTR’s oversight of the postpayment contractors;



25
  Final Report titled, Audit of the Prepayment Audit Process, Transportation Audits Division, Federal
Acquisition Service, Report Number A120060/Q/9/P13001 issued March 14, 2013.
26
  We did not audit the reliability of TARPS data.


A120169/Q/9/P14002                          A-1
Appendix A – Purpose, Scope, and Methodology (cont.)
   •   Examined the security clearance process for the Division’s contractors; and
   •   Evaluated the Division’s timeliness of updating ARTS.

We conducted the audit from August 2012 to December 2012 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

The scope of our work was limited to addressing the objective of this audit. Thus, our
assessment and evaluation of internal controls was restricted to those issues identified
in the Results section of this report.




A120169/Q/9/P14002                     A-2
Appendix B – Management Comments




A120169/Q/9/P14002    B-1
Appendix B – Management Comments (cont.)




A120169/Q/9/P14002     B-2
Appendix B – Management Comments (cont.)




A120169/Q/9/P14002     B-3
Appendix C – Report Distribution
Commissioner, Federal Acquisition Service (Q)

Deputy Commissioner, Federal Acquisition Service (Q1)

Chief of Staff, Federal Acquisition Service (Q0A)

Controller, Federal Acquisition Service (BF)

Assistant Commissioner, Office of Travel, Motor Vehicle, and Card Services (QM)

Director, Office of Travel and Transportation Services (QMC)

Program Manager, GAO/IG Audit Response Branch (H1C)

Federal Acquisition Service Audit Liaison, GAO/IG Audit Response Branch (H1C)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A120169/Q/9/P14002                     C-1
